STATE OF ALABAMA

OFFICE OF THE ATTOR NEY GENER AL
501 WASHINGTON AVENUE
MONTGOMERY, AL 36130
(334) 242-7300
WWW.AGO.ALABAMA.GOV

STEVE MARSHALL
ATTORNEY GENERAL

September 9, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Calvin McMillan v. Alabama, No. 20-193

Dear Mr. Harris:
I am writing to request an extension of 30 days, to and including October 21,
2020, for the filing of the State of Alabama’s brief in opposition in the abovecaptioned case. Unless an extension is granted, the State’s brief will be due
September 21, 2020.
Counsel of record, Edmund LaCour, has only recently taken over the case.
Mr. LaCour requires additional time to research the record and legal issues presented
in this case. Moreover, between now and the current due date of the brief, Mr.
LaCour has substantial briefing obligations. Finally, at least two groups have
indicated an intent to file amicus briefs in support of Mr. McMillan’s petition for a
writ of certiorari, and the State would like additional time to review those briefs
before responding to Mr. McMillan’s petition.
Thank you for your assistance.
Respectfully submitted,
s/Edmund G. LaCour Jr.
Edmund G. LaCour Jr.
cc:

Michael Admirand

